                                     SOCIAL SECURITY
MEMORANDUM

Date:   May 6, 2010                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Old-Age, Survivors and Disability Insurance Benefit Payments Sent to Non-Bank
        Financial Service Providers (A-06-09-29090)


        The attached final report presents the results of our review. Our objectives were to
        (1) determine the extent to which non-bank financial service providers (FSP) obtained
        direct access to Old-Age, Survivors and Disability Insurance benefit payments;
        (2) identify demographic information of the affected individuals; and (3) determine what
        steps the Social Security Administration had taken to prevent the transfer or assignment
        of these payments to non-bank FSPs.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                                Patrick P. O’Carroll, Jr.

        Attachment
    QUICK RESPONSE
     EVALUATION
  Old-Age, Survivors and Disability
 Insurance Benefit Payments Sent to
Non-Bank Financial Service Providers
            A-06-09-29090




              May 2010
                  .
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                 Background
OBJECTIVE
Our objectives were to (1) determine the extent to which non-bank financial service
providers (FSP) obtained direct access to Old-Age, Survivors and Disability Insurance
(OASDI) benefit payments; (2) identify demographic information of the affected
individuals; and (3) determine what steps the Social Security Administration (SSA) had
taken to prevent the transfer or assignment of these payments to non-bank FSPs.

BACKGROUND
In Fiscal Year 2008, in response to congressional concerns about media reports
highlighting instances where SSA payments were sent to payday lenders, we performed
a limited review of Supplemental Security Income (SSI) payments. We found that the
SSI payments of at least 63,065 individuals were deposited into accounts established
and controlled by non-bank FSPs at 5 banks known to have business relationships with
non-bank FSPs. We summarized the results of our review in a June 2008
Congressional Response Report: Social Security Administration Payments Sent to
Payday Loan Companies (A-06-08-28112). We initiated our current review to identify
the number of OASDI beneficiaries who received their payments in accounts controlled
by non-bank FSPs and to provide an update on steps taken to prevent the transfer or
assignment of SSA payments to non-bank FSPs.

NON-BANK FINANCIAL SERVICE PROVIDERS

Non-bank FSPs include check-cashing businesses, currency exchanges, and loan
companies. For a fee, these businesses provide customers various financial services
including check printing, check cashing, cash advance/payday loans, money orders, bill
paying, wire transfers, and/or foreign currency exchange. Through business
relationships with traditional financial institutions, non-bank FSPs can offer direct
deposit services to SSA beneficiaries. Non-bank FSPs can establish accounts at
traditional financial institutions and use those accounts to receive SSA benefit
payments. Unlike traditional bank accounts, the beneficiary does not have direct
access to deposited funds. Instead, the financial institution makes the funds—less a
transaction fee—available to the non-bank FSP for disbursement. The non-bank FSP
then deducts additional fees for its services and makes the remaining balance available
to the SSA beneficiary.




OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)      2
DIRECT DEPOSIT OF BENEFIT PAYMENTS

The Debt Collection Improvement Act of 1996 1 requires that most Federal payments be
made by electronic funds transfer (EFT). Individuals can work with financial institutions
to have their SSA payment electronically deposited into an account established at the
financial institution. Automated Enrollment is a process where financial institutions send
enrollment information through the Automated Clearing House directly to SSA. Once
SSA is notified of the EFT request, payments are sent to the requested bank account.

ASSIGNMENT OF BENEFITS

Section 207 of the Social Security Act (42 U.S.C § 407) protects a beneficiary’s right to
receive benefit payments by prohibiting the transfer or assignment of benefits. SSA
policy states that “Any arrangement in which the claimant shares control of the funds
from his or her benefit with a person or entity that has an interest in charging or
collecting money from the claimant is an assignment-like situation that violates SSA’s
policy.” 2 Any request for direct deposit that assigns or transfers the right to future
payments to someone other than the beneficiary constitutes an assignment of benefits.3
When a request for direct deposit is made that raises a question about possible
assignment of benefits, SSA policy requires that SSA obtain a written direct deposit
sign-up form, verify there is no assignment, and verify the bank account is properly
titled. 4 SSA acknowledged that electronic banking has increased the complexity of
benefit delivery and presented challenges to ensuring beneficiaries retain control of
benefit payments.

FDIC ACTIONS AT TWO BANKS

In February 2009, the Federal Deposit Insurance Corporation (FDIC) issued cease and
desist orders 5 for two of the five banks included in our June 2008 review. Both orders
cite unsafe or unsound banking practices related to either the bank’s third-party
relationships involving Social Security and other benefit payment programs, or
businesses that provide short-term anticipation loans. Consistent with the findings in
our June 2008 report, one order detailed the bank’s relationship with a corporation that
maintained contractual relationships with non-bank FSPs that solicited Social Security
beneficiaries to direct deposit their benefits in accounts the corporation established
through the bank. 6 The corporation commingled Social Security benefits in a master

1
    Pub. L. No. 104-134 § 31001, 110 Stat. 1321-376 to 377.
2
    SSA, Program Operations Manual System (POMS), GN 02410.001.D.2, Assignment of Benefits.
3
    SSA, POMS, GN 02402.045.B, Direct Deposit and Assignment of Benefits.
4
    SSA, POMS, GN 02402.045.C.
5
    Order to Cease and Desist FDIC-08-308b and FDIC-08-408b.
6
    FDIC-08-408b.


OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)           3
account, charged beneficiaries fees, and provided beneficiaries with short-term loans.
These short-term loans were recovered from their benefit payments and, sometimes,
left beneficiaries without money, forcing them to secure additional loans. The FDIC
found the bank provided inadequate oversight of the direct deposit program, failed to
oversee the corporation’s practices, and failed to ensure the corporation established
proper safeguards related to the activities of the non-bank FSPs. The orders required
that both banks cease and desist from further unsound banking practices and ordered
the banks to take numerous corrective actions. However, the orders did not prohibit the
non-bank FSPs’ continued use of the banks’ accounts to receive Social Security benefit
payments via direct deposit.




OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)   4
                                                             Results of Review
Through the use of payment address changes or direct deposit, non-bank FSPs gained
direct access to thousands of individuals’ OASDI benefit payments.7 We performed a
limited review of OASDI payments electronically deposited into accounts at nine banks
whose accounts were known to be used by non-bank FSPs to receive SSA payments.8
As of October 2009, the OASDI payments of at least 35,705 individuals were deposited
into accounts established and controlled by non-bank FSPs at 5 of these 9 banks. 9
Monthly SSA payments deposited into these accounts totaled approximately
$25 million.
                                                  Number of              Recipient
                                                   OASDI                   Primary
                       Bank Location             Beneficiaries          Locations
                    Louisville, KY                  16,859            Nationwide
                    Chicago, IL                     11,435            Upper Midwest
                    Elizabethtown, KY                3,544            South
                    Rosemont, IL                     3,236            California
                    Stockton, CA                       631            South/East

Analysis of demographic information for the 35,705 beneficiaries whose OASDI
payments were sent to non-bank FSPs revealed the beneficiaries were predominantly
minority and disabled—many suffering from various mental conditions. Approximately
57 percent of these beneficiaries had been diagnosed with a disability, compared with
14 percent of the general OASDI population. (We provide detailed demographic
information on these beneficiaries on pages 5 and 6 of this report.)

In a small number of cases, SSA payment records reflected the non-bank FSPs’ name
and address—indicating SSA was aware payments were going to the non-bank FSPs.
However, in most cases, SSA payment records did not directly indicate non-bank FSP
involvement in the payment transaction. In these instances, it appeared beneficiaries or
their representative payees entered into agreements with non-bank FSPs who, in turn,
opened bank accounts on their behalf at traditional financial institutions with Department
of the Treasury (Treasury) assigned routing numbers. Review of SSA payment records

7
    We did not identify the specific non-bank FSPs linked to these direct deposit accounts.
8
  We identified these nine banks either because (1) their bank routing number appeared on payment
records of OASDI beneficiaries whose address reflected the business name of a non-bank FSP or
(2) SSA identified the bank as the result of complaints received from beneficiaries. In no way do we imply
that these are the only banks used by non-bank FSPs to receive SSA benefit payments.
9
 We identified four bank routing numbers used to receive payments by beneficiaries whose payment
address included the name of a non-bank financial service provider (“in care of” address). However,
officials at these four banks stated the bank could not differentiate accounts established by non-bank
FSPs from traditional checking or savings accounts. We identified 420,518 beneficiaries receiving SSA
payments via electronic deposit in accounts at these four banks.


OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)                      5
with a direct deposit source code indicated approximately 95 percent of the electronic
deposits was established via automated enrollment. Under the automated enrollment
process, banks open an account and notify SSA that the beneficiary requested direct
deposit to the account. Upon receipt of the notification, bank account information is
added to the beneficiary’s payment record, and subsequent payments are deposited
into the requested bank account. However, unlike a traditional checking or savings
account, beneficiaries do not have direct access to funds deposited into these accounts.
Once the banks receive the deposits from Treasury, the funds—less a $2 or
$3 transaction fee per individual—are consolidated into clearing accounts available for
disbursement only by the non-bank FSPs. Once deposited, the funds are under the
effective control of the non-bank FSP. Before disbursing funds to the beneficiaries, the
non-bank FSPs deduct additional check printing fees, check cashing fees, loan
principal/interest fees, and/or fees for any additional services provided to the recipient.

Consumers who use non-bank FSPs typically pay higher costs in the form of transaction
fees for financial services than individuals with traditional banking relationships.
Treasury research indicates Social Security beneficiaries pay an average of between
$9 and $16 in fees just to cash their Government check at a non-bank FSP, 10 indicating
the non-bank FSPs and their financial institution partners charge the
35,705 beneficiaries between $321,345 and $571,280 in monthly check cashing fees.
These amounts are in addition to fees charged for other services (loan fees, money
orders, etc.).

In most cases, it appeared SSA was not aware that OASDI payments were deposited
into bank accounts controlled by non-bank FSPs. However, SSA did not make us
aware of any action taken to prevent the transfer of payments to non-bank FSPs.
SSA’s policies continue to outline the steps necessary to send payments directly to
non-bank FSPs. 11 On April 21, 2008, SSA published a notice in the Federal Register
requesting public input regarding an anticipated change to an Agency payment
procedure that permits benefit payments to be deposited into third-party “master”
accounts when the third party maintains separate “sub” accounts for individual
beneficiaries. 12 SSA anticipated a change to its procedures in light of concerns about
how high-interest lenders used the master/sub-account procedure. However, as of the
date of this report, SSA had not implemented any policy changes.




10
  Treasury Office of Public Affairs, Testimony from the Assistant Secretary for Financial Institutions,
Treasury, before the Subcommittee on Financial Institutions and Consumer Credit of the Committee on
Financial Services, U.S. House of Representatives, Press Release JS-503, page 2, June 26, 2003.
11
     SSA, POMS, GN 02402.030.B.4, Acceptable Types of Financial Institutions and Accounts.
12
     Federal Register Vol. 73, No. 77, Monday, April 21, 2008, page 21403.


OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)                       6
DEMOGRAPHIC INFORMATION ON 35,705 BENEFICIARIES WHOSE PAYMENTS
WERE SENT TO NON-BANK FSPS

Through analysis of SSA’s records,13 we identified demographic information on the
35,705 beneficiaries whose OASDI payments were electronically deposited into bank
accounts controlled by non-bank FSPs. Our analysis indicated the beneficiaries who
received their OASDI payments through non-bank FSPs were composed primarily of
individuals self-identified as minorities.14 More than half the beneficiaries were
diagnosed with some form of disability—many suffered from mental disabilities.

Composition by Race
                                                Beneficiary Race Per Numident
Approximately 63 percent
                                                                 Hispanic
of the 35,705 OASDI                            White              (3,582)      Other
beneficiaries whose benefit                   (6,424)                          (504)
payments were deposited
into accounts controlled by
non-bank FSPs identified
themselves as minorities—
primarily black or Hispanic.
                                                                                         Black
                                                  Unknown
                                                                                        (18,418)
                                                   (6,777)


Physical/Mental
Capacity                              Disabilities Diagnosed for Beneficiaries Whose Payments
                                     are Deposited into Accounts Controlled by Non-Bank FSPs
Approximately 57 percent
of the OASDI                                                                                       Musculoskeletal
                                                                                                      System
beneficiaries had been                                                                                 (3,862)
diagnosed with a
disability. Approximately                    No                              Mental                         Cardiovascular
                                         Disability   Disabled                                                  System
45 percent of the disabled                (15,218)    (20,487)
                                                                            Disorders
                                                                                                                (1,353)
                                                                             (9,186)
beneficiaries suffered
from some form of mental                                                                              Neurological
disorder.                                                                                               (1,169)
                                                                                             Other
                                                                                            (4,917)




13
  We obtained race, gender, and date of birth information from SSA’s Numident file—a database that
contains personal information related to each Social Security number (SSN) issued by SSA. We obtained
disability diagnosis information and state of residence from SSA’s Master Beneficiary Record—a
database that contains information used to administer the OASDI program.
14
  SSA accepts race and gender information provided by SSN applicants and records the information on
the Numident file. We compiled the race and gender information that appeared in SSA’s records for
these 35,705 beneficiaries, but did not perform any tests to verify its accuracy.


OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)                           7
State of Residence

A majority of the OASDI beneficiaries (68 percent) lived in one of five States.

                                                      Number of
                                   State              Individuals Percent
                                 Illinois                   12,327         34.5
                               California                    4,201         11.8
                                Georgia                      3,197          9.0
                               New York                      2,694          7.5
                              Pennsylvania                   1,883          5.3
                                  Other                     11,403         31.9
                                  Total                     35,705        100.0

Age/Benefit Eligibility

The average age of the beneficiaries was 50. As of December 2009, the youngest
beneficiary was 9 months old, while seven beneficiaries were at least 100 years old.
Approximately 69 percent of the individuals received benefits based on their own
earnings history (primary beneficiary). The other individuals were either auxiliary
beneficiaries (children, spouses, widows, etc. who received benefits based on another
wage earner’s earnings history) or were dually entitled and received both primary and
auxiliary benefits.

                       Number of                                      Number of
          Age         Beneficiaries                 Eligibility      Beneficiaries        Percent
        Under 18          4,998                      Primary            24,611              68.9
         18-61           17,211                      Auxiliary          10,787              30.2
        Over 61          13,490                        Dual                307               0.9
        Unknown               6                        Total            35,705             100.0
         Total           35,705

REPRESENTATIVE PAYMENT

Some individuals cannot manage or direct the management of their finances because of
their youth or mental/physical impairment. For such individuals, Congress provided for
payment to be made through a representative payee who receives and manages the
benefit payments for the beneficiary. 15 The decision to issue SSA payments through a
representative payee is a serious one since it deprives the beneficiary of direct control
over his/her finances and may affect the beneficiary’s manner of living. Representative
payees are expected to act in the claimant’s best interest and ensure benefit payments
are used first to meet the claimant’s current needs. In recognition of the potential for

15
  The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
1383(a)(2)(A)(ii).


OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)                 8
payee mishandling of benefits, Congress requires SSA to exercise care in selecting
representative payees and monitoring their performance. 16

However, we found that 7,768 (22 percent) of the beneficiaries whose OASDI payments
were sent to non-bank FSPs had representative payees. Representative payees who
direct or allow beneficiaries’ OASDI payments to be directed to a check cashing
business or payday lender raise doubts as to whether they serve the beneficiary’s best
interest and ensure SSA payments are used first to meet the beneficiary’s needs. SSA
staff noted that representative payees are often family members who, like the
beneficiaries, may not have access to traditional banking institutions. As such, SSA
does not prohibit representative payees from having beneficiary payments sent to
non-bank FSPs.

STEPS TAKEN TO PREVENT TRANSFER OF PAYMENTS

Our June 2008 report highlighted inconsistencies in SSA’s policies that prohibited direct
issuance of benefit payments to non-bank FSPs but also provided specific instructions
for directing benefit payment deposits to loan companies and check cashing facilities.
We found, in most cases, SSA was not aware OASDI payments were deposited into
accounts controlled by non-bank FSPs. However, we did not identify any action
completed by SSA since our prior report to prevent the transfer of payments to
non-bank FSPs. SSA officials stated they were taking steps to revise the policy that
allows payments to be sent to non-bank FSPs. To this end, SSA stated it has:

•     Drafted rules to prohibit direct deposit of beneficiary payments into non-bank FSP
      accounts and worked with Treasury to assist them in drafting a Notice of Proposed
      Rulemaking (NPRM) to revise the master/sub-account policy. The NPRM is in final
      clearance and is expected to be published soon. SSA expects this joint effort to end
      this questionable banking process.

•     Drafted revisions to POMS sections affecting master/sub-account policy. The
      revisions will be released for review along with the publication of Treasury's NPRM.

•     Worked with the FDIC to establish procedures for transitioning beneficiaries who
      have payments going to master/sub-accounts with check cashers to other payment
      arrangements. SSA also worked with one of the five banks included in the review to
      reduce and subsequently close all the non-bank FSP accounts.

SSA stated its involvement with the FDIC acting to close the non-bank FSP accounts
validates its strategy of working with the regulatory agencies to address the issue. SSA
also believes that coordinating its change in policy with Treasury and FDIC will further
provide the regulatory authority to identify and prohibit payments to non-bank FSP
accounts using a controlled approach that ensures no interruption of beneficiaries’
payments.

16
     SSA, POMS, GN 00501.005.C, Overview of Representative Payment.


OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)          9
                                       Matters for Consideration
Non-bank FSPs obtained direct access to approximately $25 million in monthly OASDI
payments to more than 35,000 beneficiaries through direct deposit into accounts
established at five traditional banks. Most of the affected beneficiaries are disabled and
from minority populations. We found that banks could not always distinguish between
traditional consumer checking and savings accounts, and similar accounts opened by
non-bank FSPs on behalf of Social Security beneficiaries. As a result, we could not
determine the full magnitude of beneficiaries who received payments in accounts
controlled by non-bank FSPs.

Approximately 22 percent of the cases where benefits were sent to accounts controlled
by non-bank FSPs involved representative payees. We believe it would be reasonable
for SSA to question the suitability of a representative payee who directs beneficiary
payments to a non-bank FSP. 17

While SSA’s policies sanctioning issuance of benefit payments into accounts
established and controlled by non-bank FSPs had not been changed since our
June 2008 report, SSA officials stated the Agency is revising its policies. Allowing
non-bank FSPs direct access to Social Security payments subjects a vulnerable
population of individuals to high transaction fees and, potentially, to predatory payday
loans.




17
   SSA officials stated they did not believe sending beneficiary payments to a non-bank FSP, in and of
itself, warrants questioning the suitability of the representative payee. SSA stated that representative
payees are often family members who, like the beneficiaries, may not have access to traditional banking
institutions. Regardless, SSA believes that when Treasury publishes its new regulations, banks will be
prevented from engaging in third party relationships with non-bank FSPs, effectively ending the
questionable banking practices at issue.


OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)                    10
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)
                                                                         Appendix A

Acronyms

    EFT                Electronic Funds Transfer

    FDIC               Federal Deposit Insurance Corporation

    FSP                Financial Service Provider

    NPRM               Notice of Proposed Rulemaking

    OASDI              Old-Age, Survivors and Disability Insurance

    POMS               Program Operations Manual System

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    SSN                Social Security Number

    Treasury           Department of the Treasury

    U.S.C.             United States Code




OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)
                                                                         Appendix B

Scope and Methodology
To accomplish our objectives, we:

• Reviewed applicable laws, regulations, and the Social Security Administration’s
  (SSA) policies and procedures governing use of non-bank Financial Service
  Providers (FSP).

• Interviewed SSA and bank staff.

• Reviewed prior Office of the Inspector General reports.

• Reviewed Government Accountability Office reports and found none related directly
  to our objectives.

• We identified five bank routing numbers used by non-bank FSPs to receive OASDI
  payments. In October 2009, we identified 35,075 OASDI beneficiaries who received
  electronic deposits to accounts linked to the five routing numbers. We contacted
  representatives from the five banks and confirmed the accounts were not individual
  checking or savings accounts. The accounts were opened as a result of business
  arrangements between the bank and non-bank FSPs.

• Using SSA’s Master Beneficiary and Numerical Identification Records, we identified
  pertinent demographic information (date of birth, gender, race, current address,
  disability diagnosis code, representative payee information, and direct deposit
  information) related to each of the 35,075 OASDI beneficiaries.

We performed our review between October 2009 and January 2010. We determined
that the data used in this report were sufficiently reliable given the review objective and
their intended use. The entities reviewed were the Offices of the Deputy
Commissioners for Operations and Retirement and Disability Policy. We conducted our
review in accordance with the Council of the Inspectors General on Integrity and
Efficiency’s Quality Standards for Inspections.




OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)
                                                                         Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Ronald Gunia, Director, Dallas Audit Division

       Jason Arrington, Audit Manager

Acknowledgments
In addition to those named above:

       Clara Soto, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-09-29090.




OASDI Benefit Payments Sent to Non-Bank Financial Service Providers (A-09-09-29090)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
